BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 40 bound
copies and 1 unbound copy of the foregoing Brief for
the Respondent in 20-915, Unicolors, Inc., a California
Corporation u. H & M Hennes & Mauritz LP, a New
York limited partnership, was sent via Next Day
Service to the U.S. Supreme Court, and 3 copies were
sent via Next Day and e-mail service to the following
parties listed below, this 21st day of September, 2021:

E. Joshua Rosenkranz
Orrick, Herrington & Sutcliffe LLP
51 West 52nd Street
New York, NY 10019
(212) 506-5380
jrosenkranz@orrick.com
Scott Alan Burroughs
Doniger / Burroughs APC
603 Rose Avenue
Venice, CA 90291
(301) 590-1820
scott@donigerlawfirm.com
Counsel for Petitioner
Peter K. Stris
Counsel of Record
Stris and Maher LLP
777 S. Figueroa Street
Suite 3850
Los Angeles, CA 90017
(213) 995-6800
pstris@stris.com
Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 21, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

3&~ h-4. J-J 1

chfi<-

l(J '

Notary Public

<JOo1

{o~

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
rebruary 14, 2023

.

